>

' »

No.

FILED
I
JUN 1 6 2020
IN THE

§^prfm°FcourtLuJ!,

SUPREME COURT OF THE UNITED STATES

Joseph E. Lawrence -- PETITIONER
vs.
Mike McGrath, et.al.

RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
THE MONTANA STATE SUPREME COURT
PETITION FOR WRIT OF CERTIORARI
Joseph E. Lawrence, 3014255
Montana State Prison
700 Conley Lake Road
Deer Lodge, Montana

59722

Ndophbne nurrifeeraavaiiaMe

QUESTION(S) PRESENTED
(1) Are the Montana Supreme Court, Montana Attorney General and Montana's
lower courts obligated and/or accountable to abide by the express provisions of
Montana Constitution, Article II, Section 9 and/or express statutory provisions
of Montana Code Annotated (MCA) 2-6-1001 et.seq. for the dissemination of public
records to 'any person' as expressly stated in Montana Constituion, Article II,
Section 9 and MCA 2-6-1001 et.seq.?

If so, are the violation and deprivation of

those rights to an individual 'person' of those express provisions through con­
spiratorial collusion and corruptly acts of those State judicial offices and Of­
ficers actionable under federal law as U.S. Constitutional claims of the 1st Am­
endment guaranteed right to redress and 14th Amendment as applied to the States?
(2) When a gudge or judges of a Court or Courts act[s] outside of their
'legitimate scope of judicial authority' in collusion and conspiracy with other
State agencies and officials, including the Executive Branch of the State's At­
torney General's Office to violate and deprve a citizen of his/her Constitu­
tional rights, does the issue then raise claims of the negation of 'subject mat­
ter jurisdiction'?

If so, are 42 USCS §1983 and/or 18 USCS §1961 et.seq. appro­

priate civil and/or criminal proceedings for the claims of Constitutional damage
and/or injury belief, as well as to compel specific performance from stated in­
jury? I.E. - Dissemination of requested public records.
(3) What is the appropriate procedure to enforce the specific performance
of given Constitutional right add entitled judicial relief in regards to the
guaranteed Montana Constitution, Article II, Section 9 and/or MCA 2-6-1001 et.seq.
for the dissemination of public records as expressly provided to 'any person' and
'of any document[s] in official's hand'? And what forms of oversight of that
specific performance are available to Petitioner to insure fulfillment of such
judicial relief from actionable procedures to prevent the obstruction of such

dissemination and/or destruction of such requested public records? I.E. - DOJ
and/or FBI and/or Special Prosecutor supervision/procurement of all requested
public records to insure full, complete and accurate dissemination of such re­
cords .
(4)

If the underlying claims and allegations are proven factual as to con­

spiracy, collusion, corruption, misconduct and/or ethics violations of named par­
ties herein, what are the proper procedures for filing a criminal complaint aga­
inst such parties? And what are this Court's obligatory actions for sanctioning
and/or prosecuting such proven claims, and/or applying adequate sanctions to pre­
vent further and/or future transgressions of such actors? And does the implicit
and/or extrinsic involvement in the concealment and/or cover-up of ftontana's lower
Court's illegal and/or plausible criminal acts present cause for the recommendation/prosecution for both 42 USCS §1983 and/or 18 USCS §1961 et.seq. investigation
for the injuries caused by §uch Constitutional violations and/or deprivations of
Petitioner's (and other's) Constitutional rights on such a large scale?

LIST OF PARTIES
[ ] All partiesappear in the caption of the case on the cover page.
[X] All partiesdo not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the sub­
ject of this petition is as follows:
Chief Justice Mike McGrath;
Justice Laurie DfcKinnon;
Justice Beth Baker;
Justice James Shea;
Justice Jim Rice (all of Montana State Supreme Court)
Timothy Charles Fox, Montana Attorney General;
Mardell Ployhar, Assistant Montana Attorney General;
Judge Howard F. Recht;
Judge Jennifer B. Lint (both of the 21st Judicial District Court of Ravalli
County, Hamilton, Montana)
RELATED CASES
State v. Lawrence, No. DC-12-127, 21st Judicial District Court of Montana
Judgment entered September 30, 2014 and June 28, 2017 (on remand)
Lawrence v. Salmonsen, No. OP-18-0440, Montana State Supreme Court,
Judgment enteredciMarch 26, 2019 (2019 MT 74)
Lawrence v. Kirkegard, No. DA-14-0720, Montana State Supreme Court,
Judgment entered September 7, 2016 (2016 MT 209N)
Lawrence v. State, No. cv-15-78-M-DLC-JCL, U.S. District Court of Montana,
Missoula Division, Judgment date unknown (dismissed w/o prejudice)
Lawrence v. Marble et.al., No. 9:15-cv-00085-DLC, U.S. District Court of
Montana, Missoula, Judgment date unknown (dismissed w/o prejudice)
Lawrence v. Kirkegard, No. OP-16-0366, Montana State Supreme Court,
Judgment date unknown
Lawrence v. Salmonsen, No. CV-18-135-M-DLC, U.S. District Court of Montana,
Missoula Division, Judgment entered November 30, 2018 (w/o prejudice)(
Lawrence v. State of Montana, No. CV-19-63-H-BMM, U.S. District Court of
Montana, Helena Division, Judgment entered March 2, 2020
Lawrence v. Guyer, No. 9:19-cv-00163-M-DLC-KLD, U.S. District Court of
Montana, Missoula Division, Currently pending

TABLE OF CONTENTS
OPINIONS BELOW.

1

3 *.

JURISDICTION >

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.,...

£

STATEMENT OF THE CASE.......

4

REASONS FOR GRANTING THE WRIT

10

CONCLUSION..

16
INDEX TO APPENDICES

APPENDIX A Decision of State Trial Court

17

APPENDIX B Decision of Montana State Supreme Court...

.....20

APPENDIX C Letter from Clerk of Montana Supreme Court
denying Rehearing....... ................................

22

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
Shockley v. Cascade County, 2014 MT 281............................
.......10, 11
Great Falls Tribune v. Dist. Court of Eighth Judicial
Dist., 186 Mont. 433, 437-38, 608 P.2d 116, 119 (1980)
11
Great Falls Tribune v. Day, 1998 MT 133, 1130............... .
11, 12
11, 12
Associated Press v. Bd. of Pub. Educ., 246 Mont. 386, 391
Warth v. Seldin, 422 U.S. 490, 500 £1975).................... .
11
Krakauer v. State, 2016 Ml 230............................ ..............
..11, 12
Lance v. Hagadone Inv. Co., 258 Mont. 433, 447 £1993)....
12
12
Raap v. Bd. Trs., 2018 MT 58....... .......................................
12
Billings Gazette v. City of Billings, 2013 ITT 334........
12
Havre Daily News v. City of Havre, 2006 MT 215.=.......
12
Bozeman Daily Chronicle v. City of Bozeman Police Bep't, 260 Mont. 218
12
Great Falls Tribune v. Cascade Cfcy. Sheriff, 238 Mont. 103, 107 (1989)
12, 13
Krakauer v. State, 2019 MT 153............. .......................................
12, 13
Great Falls Tribune v. Mont. PSC, 2003 MT 359.................. ...............
STATUTES AND RULES
Montana Code Annotated (MCA) 2-6-1001 et.seq. (2-6-1003(1))

4, 6, 7

OTHER
ffontana Constitution, Article II, Section 9 - 'Right to Know

OTHER CASES OF INTEREST
Disability Rights Montana v. Batista, 2019 U.S. App. LEXIS821465
Albert v. Mont. Dep't of Corr., 2019 U.S. Dist. LEXIS 65676.......

4, 7, 10, 11

13
14

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that writ of ceritorari issue to review the judgment
below.

OPINIONS BELOW
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[X] is unpublished.
The opinion of the 21st Judicial District Court appears at Appendix B to
the petition and is
[X] is unpublished.

1.

JURISDICTION
[X] For cases from state courts:
The date on which the highest court decided my case was March 31, 2020.
A copy of that decision appears at Appendix A.
[Xi] A timely petition for rehearing was thereafter denied on the following
date':' April 13, 2020, and a copy of the letter from the Clerk of the
Montana State Supreme Court denying rehearing appears at Appendix C.
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Montana Constitution, Article II, SSction 9 - 'Right to Know'
Montana Code Annotated (MCA) 2-6-1001 et.seq.;
MCA 2-6-1003(1);
MCA 2-6-1006(1)(2)(a)(b)(3);
MCA 3-l-1106(l)(a)(2)(a -c)(3);
MCA 3-1-1111;
MCA 3-1-1121(1)(2)(3);
MCA 3-1-1126;
MCA 3-1-1107(1)(a)(2);
MCA 5-11-210;
MCA 3-l-1126(l)(a - f); and
MCA 395-203
And to some extent:
United States Constitution 1st and 14th Amendments.

3.

STATEMENT OF THE CASE
Comes now pro-se, incarcerated and indigent Petitioner, Joseph E. Lawrence,
with the above entitled Petition.

Petitioner's 'Motion to Compel for Production

of Public Records, Documents, Records, Information, Reports and Evidence' (Ex­
hibit PPPP)(here on refered to as 'Motion to Compel)) was initially filed in the
21st Judicial District Court of Montana, Judge Howard F. Recht presiding, as DC12-127/26'9 in response to August, 2018 through October, 2018 non-responded to rna
mailings of Petitioner (Exhibit 0000) requesting publicly available documents as
outlined in Petitioner's 'Motion to Compel' and as expressly provided for under
Montana Code Annotated (MCA) 2-6-1003(1) et.seq. -AAccess to Public Information and other listed MCAs presented in 'Motion to Compel,' as well as provided for in
and by Montana Constitution, Article II, Section 9 - 'Right to Know':
"No person shall be deprived of the right to examine documents
or to observe the deliberations of all public bodies or agencies of
state government and its subdivisions, except in cases in which the
demand of individual privacy clearly exceeds the merits of public
disclosure."
Judge Howard F. Recht of the 21st Judicial District Court of Montana (erro­
neously) denied Petitioner's 'Motion to Compel' citing exhaustion of all collatecal attacks against Petitioner's conviction due to plea agreement.

This being

in error as 'Motion to Compel' was not in direct collateral attack of Petitioner's
plea agreeementaarid/or subsequent sentence,

It is and was an attempt at 'entitled

judicial relief' for the failure of state agencies to turn over the public docu­
ments requested under the provisions of Montana Law and Constitution as clearly
specified in 'Motion to Compel,' but (mysteriously) transmorgified by the 21st
Judicial District Court and Judge Recht (and subsequently Judge Jennifer B. Lint
of the 21st Judicial District Court, Dept. 2 in the case of Chad Milless (DC-16140/78)) and denied on July 2, 2019 (Appendix B and

:).

Petitioner then appealed the case up to the Montana Supreme Court on

4.

July 19, 2019 (Exhibit RRRR) thus opening Direct Appeal DA-19-0431.

Petitioner

equally filed for a Motion for Supervisory Control in the U.S. District Court of
Montana, Missoula Division, (although Helena Division assumed jurisdiction) on
September 25, 2019 (Exhibits SSSS and Ti'iT) as well as a Motion to Forward the
Reoord on Appeal from the 21st Judicial District Court.

Appellant's Brief was

equally contained within the Motion for Supervisory Control (Exhibit TOT) out­
lining the circumstances and cause for requesting Supervisory Control.

Case was

captioned as 6:19-cv-00063-H-BMM-JTJ.
On October 21, 2019, Petitioner filed an Addendum/Supporting Memorandum of
Law for DA-19-0431 (Exhibit UUUU) citing the Montana Supreme Court's own rulings
in support of Petitioner's 'Motion to Compel.'
On October 18, and again on October 23, 2019, Petitioner received Notice of
Filing (Exhibits VVW and WWWW) of the supposed record on appeal from the 21st
Judicial Courti,. but did not receive any of the items described in the Notice[s]
of Filing, as required by Montana Rules of Appellate Procedure.

When Petitioner

filed a 'Motion for Extension of Time and Motion to Receive Filed Documents' (Ex­
hibit AAAAA), it was initially returned by the Clerk of Court of the Montana Sup­
reme Court (Exhibit XXXX), and later refiled on November 15, 2019 along with Pe­
titioner's 'Appellant's Opening Brief and Supporting Memorandum of Law' for DA-190431 (Exhibit YYYY), detailing Montana State Constitution, Article II, Section 9,
and the Montana Supreme Court's own rulings in regards to the granting of judi­
cial relief of those who have requested and been denied access to public records
such as Petitioner was and has been, in clear and direct violation, deprivation,
and opposition of guaranteed Montana Constitutional Rights.
On November 21, 2019, U.S. Magistrate John Johnston repolied to Petitioner's
Motion for Supervisory Control, by granting in forma pauperis, but dimissing all
other actions for lack of subject matter jurisdiction in his 'Order and Findings
and Recommendations of U.S. Magistrate Judge.' (Exhibit ZZZZ)

5.

On December 3, 2019, Chjef Justice Mike McGrath of the Montana Supreme Court
denied Petitioner's 'Motion for Extension of Time and Motion to Receive Filed Doc­
uments' (Exhibit AAAAA) citing lack of Petitioner citing law or authority to re­
ceive such 'Record on Appeal' and alleging that Petitioner's motion was an "'end
run' to receive documents that he was previously denied in the District Court."
(Exhibit BBBBB)
On March 9, 2020, after four (4) previous granted 'Motion[s] for Extension
of Time...' Montana Attorney General Timothy C. Fox, by way of Assistant Attorney
General Mardell Ployhar, filed the fifth 'Motion for Extension of Time and Decla­
ration in Support' in which it was stated that the Montana Attorney General's Of­
fice intended to file a Motion to Dismiss (Exhibit CCCCC).

Which the Montana At­

torney General's Office did on March 12, 2020 (Exhibit DDDDD).
The Montana Attorney General's 606tion to Dismiss Appeal' (Exhibit DDDDD)
mysteriously and erroneously transmorgified Petitioner's stated MCA 2-6-1003 et.
seq. as legal merit for such appeal and basis for 'Motion to Compel' into MCA 4620-104(1) (Exhibit DDDDD, Pg. 4, 113) in a clear and obvious effort to subvert Pe­
titioner's valid and meritous use of correct MCA 2-6-1003(1) and other accurately
used MCAs in Petitioner's 'Motion to Compel' (Exhibit PPPP).

Ployhar goes on to

state that, "[i]f Lawrence intends to request documents unrelated to his criminal
case, he should follow the procedures set out in Mont. Code Ann. §2-6-1001et.seq.
If he intends his motion to compel to be a seperate civil proceeding, the motion
would be subject to dismissal because he had not demonstrated any case of contro­
versy.

To do so, Lawrence would have to request public documents from an appro­

priate agency, and then demonstrate to a court that an agency failed to give him
documents to which he was entitled." (Exhibit DDDDD, Pg. 5, n.2) Which is pre­
cisely what Lawrence had already done, including the use of MCA §2-6-1003, and
the 21st Judicial District Court, by the admissions of Judge Recht himself had
already conceded that Lawrence had in fact contacted the agencies listed in '''Mo-

6.

tion to Compel'

and Appendix B) and further conceded in Judge Jen­

nifer B. Lint's response to Chad Milless' identically filed 'Motion to Compel'
(DC-16-140/78), where it was alluded to that the 21st District Court had in fact
found the Milless had not contacted such agencies, whereas Lawrence had.

In

either case, the error is in the placing of any nexus or 'case or controversy'
as a predicate factor, prerequisite or 'province' for the request of any public
record documents under the express provisions of MCAs 2-6-1001 et.seq. or Mon­
tana Constitution, Article II, Section 9 as will be shown below.

But, this can

blatantly be seen as a collusional and conspiratorial effort to cover-up the
acts committed by Judges James A. Haynes and Jeffrey Ha Langton, Ravalli County
Attorney William E. Fulbright and other named and unnamed parties in Petitioner's
'Motion to Compeij' and as further evidenced in the currently pending, although
sealed by Judge Lint case being prosecuted by the Montana Innocence Project for
Kelly Dean Worthan against Ravalli County Prosecutor William E. Fulbright and
Judge James A. Haynes (forced retired) for knowingly using perjured testimony
and evidence, intimidating the victim/witness and other forms of official mis­
conduct to convict an innocent man (Worthan) to protect the actually guilty per­
son, whom was a member of the Mormon Church where Fulbright is a ranking member
(along with Judge Howard F. Recht who was also purported to be an assistant Ra­
valli County Attorney at the time of Worthan's wrongful and illegal conviction).
It is my understanding that the Worthan case has since, and recently been gran­
ted a change of venue out of the 21st Judicial District Court due to bias, and
rightfully so, due to the long standing and consistent corruption that is prevalent there.

Case caption and new court jurisdiction are unknown at this time.

Moving on, and getting back on topic, although the 'side-trip' will plausi­
bly corraborate Petitioner's claims in the end here, Petitioner filed an imme­
diate '...Objection and Response to State of Montana's Motion to Dismiss Ap­
peal ()DA-19-0431)' (Exhibit EEEEE) where numerous legal citations of the Mont-

7.

ana Supreme Court were stated and cited, and will be herein cited again below.
On March 31, 2020, the Montana Supreme Court issued an order dismissing
(erroneously and siding with the Montana Attorney General's Office) Petitioner's
Direct Appeal DA-19-0431, in direct and absolute violation and deprivation of
Petitioner's guaranteed rights under Montana Constitution, Article II, SSetion
9.

In fact, the Montana Supreme Court blatantly and flagarantly espoused the

Montana Attorney General's use of MCA §46-20-104(1), that did not appear in any
shape or form in Petitioner's 'Motion to Compel,' but is a clear indication of
collusion and conspiracy to attempt to keep covered-up and concealed the plausi­
bly illegal and criminal acts of the 21st Judicial District Court and its cor­
rupt actors, Judge James A. Haynes and Jeffrey H. Langton, and Ravalli County
Attorney William E. Fulbright et.al., as well as plausibly theiinvolvement of
the Montana Supreme Court and the Montana Attorney General's Office, in collu­
sion arid conspiracy with the lower court(s).
The Montana Supreme Court's 'order' dismissing Petitioner's Appeal DA-190431 (Appendix A and

almost identically 'lock-stepped' with the

Montana Attorney General's 'Motion to Dismiss' (Exhibit DDDDD) to the point of
even misquoting and inserting the MCA NOT used in Petitioner's 'Motion to Compel,
thus inserting an MCA (46-20-104(1)) equally erroneously and mysteriously used
by the Montana Attorney General, and in complete ignorance and defiance of the
stated and quoted rulings of the Montana Supreme Coutt itself in favor and sup­
port of* Petitioner's 'Motion to Compel.'
On the 7th of April, 2020, Petitioner filed ‘'’Appellant's Objection and Re­
sponse to Montana Supreme Court's Order to Dismiss Appeal DA-19-0431 and Demand
for Re-Hearing' (Exhibt GGGGG), again clearly stating and pointing out the well
established law and Supreme Court rulings in favor and support of 'Motion to Com­
pel' and Petitioner's requested and entitled judicial relief.
Petitioner's

Objection and Demand for Re-Hearing' (Exhibit GGGGG) was arbi-

8.

trarily and without any hearing in the court, returned unfiled by the Clerk of
the Montana Supreme Court, stating "[t]hat case is closed." (Appendix C and JlgiS}
This is in and of itself is in direct contradiction and opposition to
Montana Rules of Appellate Procedure, and a due process violation.

9.

REASONS FOR GRANTING THE PETITION
The 21st Judicial District Coutt, Montana Attorney General's Office,, and
the Montana Supreme Court, all named individually as Respondents in the caption
and herein in the Petition have not inly violated and deprived Petitioner of his
rights under Montana Constitution, Article II, Section 9, but have also erred
egregiously by their dismissal of not only Petitioner's 'Motion to Compel,' but
These dismissals were not just er­

also Petitioner's Direct Appeal DA-19-0431.

roneous, but fraudulant and without 'province* by the Montana Supreme Court,
Monfcaaa Attorney General or 21st Judicial District Court to create predicate
factors or prerequisites for judicial relief for the lawful release of State of
Montana public records to, "any person" who so requests such documents under the
precepts and express provisions of Montana Constitution, Article II, Section 9,
and the Montana Supreme Court's own rulings,

In fact, the rulings and prece-

dents of the Montana Supreme Court are clear, unambiguous and succinct, leave
no room for interpretation, placement of predicate factors or judgment, and are
in complete support and favor of the granting of Petitioner's 'Motion to Com­
pel' when it comes to Montana Constitution, Article II, Section 9, as stated
herein and below:
"Our Constitution does not impose requirement that Montana citi­
zens be subject to the jurisdiction of a particular body in order to
have standing to exercise the right to know. In the absence of such
requirement, it is not the province of this Court to read one into
the Constitution. The plain language of Article II, Section 9 indi­
cates thht all Montana citizens have a right to inspect the documents
of any public body in the state, regardless of any nexus between the
citizen and the governing body in question - subject of courfee, to the
privacy restrictions set forth in Article II, Section 9.
The inquiry to determine standing in an action premised on the
violation of Constitutional ©ndstatutory rights is only, "whether the
constitutional of statutory provision can be understood as granting
person in plaintiff's position a right to judicial relief. ...We hold
Article II, Section 9 grants a right to judicial relief to a Montana
citizen alleging denial of access to a document[s] of a Montana public
body. The plaintiff here is a citizen of Montana who has alleged he
was denied the right to inspect the documents of a public body. These
facts are sufficient to establish standing under Article II, Section

10.

9 of the Montana Constitution." Shockley v. Cascade County, 2014 MT 281
The Montana Supreme Court in other cases prior and since the Shockley ruling
in regards to Article II, Section 9 even further elaborate thht:
"Article II, Section 9 does not require that a person be a resi­
dent of a county, or subject to its jurisdiction, before that person
can examine that county's documents. The language of Article II, Sec­
tion 9 indicates a broad right to know: "No person shall be deprived
of the right to examine documents...of all public bodies or agencies
of state government and its subdivisions." Mont. Cohsfc. Art. II, §9
(emphasis added) We have previously held that: "The language of this
provision speaks for itself. It applied to all persons and all pub- .
lie bodies of the state and its subdivisions without exception." Great
Falls Tribune v. Pist. Court of Eighth Judicial Distv, 186 Mont. 433,
437-38, 608 P.2d 116, 119 (1980). The legislature similarly gives a
broad reading to the right to know: "Every citizen has a right to in­
spect and take a copy of any public writings of this state..." Section
2-6-102, MCA (Montana Code Annotated)(emphasis added) "The goaT of
Article II, Section 9 is government transparency and accountability."
"[T]he deliberations and resolution of all public matters must be sub­
ject to public scrutin." Montana Constitutional Convention, Verbatim
Transcript, Mar. 7, 1972, p. 1670. As one convention delegate aptly
stated1: "Montanan's want to be part of their government. They want to
know their government and what it is doing. They want to provide in­
put on matters which affect them directly or which they are keenly in­
terested in." Montana Constitutional Convention, Verbatim Transcript,
Mar. 7, 1972, p. 1657 (Bnphasis added)
MWe have previously Stated Article II, Section 9 of the Montana
Constitution is "unambiguous and capable of interpretation from the
language of the provision alone." Great Falls Tribune v. Day, 1998 MT
133, 1l30(citing Great Falls Tribune v. District Court of Eighth Judi­
cial Dist., 186 Mont. 433, 437 (1980). We have also stated that the
provision is "unique, clear and unequivocal," and thht "[w]e are pre­
cluded, by general principle of constitutional construction, from
resorting to extrinsic methods of interpretation." Associated Press v.
Bd. of Pub. Educ., 246 Mont. 386, 391 (1991). We thus only rely on
the language of the provision itself, which expressly provides that
"no person" shall be deprived of the right to examine documents or ob­
serve the deliberations of public bodies, except when required by the
demands of indiviual privacy."
"Since the alleged injury is premised on the violation of consti­
tutional and statutory rights, 'standing depends of whether the consti­
tutional or statutory provision...can be understood as granting persons
in the plaintiff's position a right to jddicial relief." Schoof, 1121
(citing Warth v. Seldin, 422 U.S. 490, 500 (1975)). Thereforeunder
the plain language of the provision, we hold that [Krakauer], though
an out-of-state resident, has standing to invoke the right to know
guarantees under Article II, Section 9 of the Montana Constitution."
(quoting Krakauer v. State, 2016 MT 230)
"1135, Article 11, Section 9 of the Montana Constitution provides
that "[n]o person shall be deprived of the right to examine documents
• • • of all publice bodies or agencies of state government and its sub­
divisions, except in cases in which the demand of individual privacy

11.

clearly exceeds the merits of public disclosure." As we have explained,
"[t]his constitutional provision generally requires information regard­
ing state government to be disclosed to the public, except in cases
where the demand of individual privacy clearly exceeds the merits of
public disclosure." Associated Press, Inc., 1124. Indeed, "our Consti­
tution gives a high priority to the public s right to know." Lance v.
Hagadone Inv. Co., 258 Mont. 433, 447 (1993)..."
"...Pursuant to the Montana Constitution, we have established a
two-part test in ofder to strike a balance between the needs for gov­
ernment transparency and iddividual privacy: (1) "whether the person
involved has a subjcetive or actual expectation of privacy[.]" and
(2) "whether society is willing to recognize that expectation as rea­
sonable." Great Falls Tribune v. Day, 1998 MT 133, 1120 (citation omit­
ted)" Krakauer v. State, 2016 MT 230
"1118 " If the person had notice his records were subject to
public disclosure or thebjphfolic entity already made them publicly
available," [such as previous DUI convictions, Langton 2005] "then
he cannot have an actual or subjcetive expectation of privacy in the
records." Raap v. Bd. Trs., 2018 MT 58, 1112; Billings Gazette v. City
of Billings, 2013 MT 334, 1118; Havre Daily
MT 215, 1123."
"1129...We have long held society is less willing to recognize
the privacy expectation of an individual who holds a position with a
high level of public trust when the information the public seeks bears
on that individual's ability to perform public duties...Billings Ga­
zette, H49...See Bozeman Daily Chronicle v. City of Bozeman Police
Pep1 ¥, 260 Mont. 218, 227 (1993)(investigative documents associated
with allegations of sexual intercourse without consent by an off duty
officer were proper matters for public scrutiny because "such alleged
misconduct went directly to the police officer's breach of his position
of public trust...); Great Falls Tribune v. Cascade Cty. Sheriff, 238
Mont. 103, 107 (1989)X"[L]aw enforcement .officers occupy positions of
great public trust. Whatever privacy interest the officers have in the
release of their names as having been disciplined, it is not one which
society recognizes as a strong right.") and from Lance v. Hagadone Inv.
Co., 258 Mont. 433, "...[o]ur constitution gives a high priority to the
public's right to know. It can be abridged only when "the demand of
individual privacy cleatly exceeds the merits of public disclosure."
Art. 2, §9, Mont. Const. See Great Falls Tribune Co. Inc, v. Cascade
County Sheriff (1989) 238 Mont. 103, (when law enforcement officers
have engaged in conduct that subjects them to disciplinary action, the
public's right to know outweighs law enforcement officer's privacy in­
terest.)" PParticularly when the matter have "...high importance and
concern to the public." Krakauer v. State, 2019 MT 153
"1153 "Balance against the privacy interest, "there is a cosntitutional presumption that all documents of every kind in the hand of
public officials are amenable to inspection, regardless of legislation,
special exceptions made to accomodate the exercise of constitutional
police power, and other competing constitutional interests, such as
due process." Great Falls Tribune v. Mont. PSC, 2003 MT 359, 1154 (em­
phasis in original)(citations omitted). Thus, going into the balanc­
ing test, the public's right to know is to be weighted with a presump­
tion favoring release." Krakauer v. State, 2019 MT 153
"...We have accordingly recognized na constitutional presumption
that all documents of every kind in the hands of public officials are
• • t

12.

amenable to inspection..." Great Falls Tribune v. Mont. PSC, 2003 MT
359, 1154 (citation and emphasis omitted) Krakauer v. State, 2019 MT 153
The rulings of the Montana Supreme Court are time and again in favor of Pe­
titioner's 'Motion to Compel' and equally in favor of Petitioner's Direct Appeal
DA-19-0431 that was erroneously denied by the 21st Judicial District Couirt as
DC-12-127/261?, and then dismissed conspiratorially and in collusion by and be­
tween the Montana Supreme Court and the Montana Attorney General, plausibly to
avoid the Court officials' own implicity in the severe acts and actions, "[t]hat
seriously affect[s] the fairness, integrity [and/]or public reputation of [the
21st Judicial District Court and Montana Supreme Court's] judicial proceedings."
United States v. Young, 470 U.S. 1, 15 (1985)(quoting United States v. Atkinson,
297.U.S. 157, 160 (1936))
"...[Ajdamancy in erroneous rulings may justify remand to [a] different
judge," Reyes, 313 F.3d at 1159-60 (citing Sears Roebuck & Co., 785 F.2d at 780).
This holding reflects the sound reasoning that judges who have insisted on erro­
neous ruling, even when their errors are obvious and have been highlighted for
the Court, might not appear to the disfavored parties to be likely to decide in
accord with the law in the future.

Whenaa [District] Court errs in this way, es­

pecially when the court gives no pMusible justification for its decision, part­
ies and observers may justifiably doubt whether the future disposition of their
matter in the continuing proceedings will be based on proper consideration of
law and equity." Disability Rights Montana v. Batista, 2019 U.S. App. LEXIS 21465
(9th Cir.), where ironically, Chief Justice Mike McGraths's old Butte Central High
School classmate and chum, Mike Batista is the target of inmate abuse contention,
and the Montana Supreme Court was refered to as a 'Kangaroo Court.'
"There is great distinction between the wrongs committed by one private
individual against another and wrongs committed under the authority of the State.
Common law causes of action intended to regulate relationships among and between

13.

individuals are not adequate to redress the type of damage baused by the inva­
sion of constitutional rights." Albert v. Mont. Dep't Corr., 2019 U.S. Dist.
LEXIS 65676 (2019)
law.

"Thus, neither judges nor Government attorneys are above the

See United States v. Isaacs, 493 F.2d 1124, 1143 (7th Cir. 1974).

In out

judicial system, few more serious threats to individual liberty can be imagined
than a corrupt judge or judges acting in collusion outside of their official
authority with the Executive Branch to deprive a citizen of his rights."
"To show fraud on the court, a plaintiff must show "by clear and convincing
evidence, andeffort by the government to prevent the judicial process from func­
tioning in the usual manner." United States v. Estate of Stonehill, 660 F.3d 415,
4455(9th Cir. 2011_(quoting Garcia v. Perrault, 2018 U.S. Dist. LEXIS 216695 (9th
Cir.)

The abuse of discretion and direct and f(lagarant defiance of the Montana

Supreme Court of their own rulings and precedents is clear and sufficient show­
ing of fraud on the court, and creates issues of jurisdiction due to the clear
and evidenced violation and deprivation of Petitioner's Constitutional rights.
"Where there is absence of jurisdiction, all administrative and judicial pro­
ceedings are a nullity and confer no right, offer no protection, and afford no
justification, and may be rejected upon direct collateral attack." Thompson v.
Tomie, 7 L.Ed. 381; Griffith v. Frazier, 3 L.Ed. 471.

"A departure;by a Court

from those recognized and established requirements of law, however close apparent
adherence to mere form in method of procedure, which has the effect of depriving
one of a Constitutional right, is an excess of jurisdiction." Wuest v. Wuest, 127
P.2d 934, 937.

"Jurisdiction can be challenged at any time, even on final deter­

mination." Basso v. Utah Power & Light Co., 496 2nd 906 at 910.

Equally, "[t]he

issue of a Court's subject matter jurisdiction may be raised at any time." Bayleat Law PC v. Petit, 1998 MT 252.
"The office of the judge is simply to ascertain and declare what is in sub­
stance contained there-in, not to insett what has been omitted or omit what has

14.

been inserted." Lone Elk v. State, 2005 MT 56; State v. Sear ingen, 2001 MT 10.
"When a judge knows he lacks jurisdiction, or acts in the facfe of clearly valid
Constitutional provisions or valid statutes expressly depriving him of jurisdicfeio
tion or judicial capacity, judicial immunity is lost." Rankin v. Howard, 633 F.2d
844 (1980); Den Zeller v. Rankin, 101 S.Ct. 2020 (1981)
"An individual government official 'causes' a constitutional deprivation
when he or she (1) "does an affirmative act, participates in another's affirma­
tive acts, or omits to perform an act which he [or she] is legally required to
do that caused the deprivation," or (2) "set[s] in motion a series of acts by
others which the [defendant] knows or reasonable should know would cause others
to inflict the constitutional injury: MU Lacey v. Maricopa Cty., 693.F.3d 896,
915 (9th Cir. 2012)
"The prohibitions of the 14th Amendment refer to all the instrumentalities
of the State - Legislative, Executive and Judicial - and therefore, whoever, by
virtue of publice position under a State Government, deprives another of any right
protected by that Amendment against deprivation by a State, violated the Consti­
tutional inhibition, and as he acted in the name and for the State, and is clothed
with the State's power, his act is that of the State." Frank v. Mangum, 237 U.S.
309.
Petitioner now requests the prayer for relief in the form of granting of
a Writ of Certiorari, and the correction of the unconstitutional errors of the 21st
Judicial District Court of Montana, the Montana Attorney General's Office, and the
Montana Supreme Court itself, and grant Petitioner's 'Motion to Compel' as filed
as DC-12-127/267 and DA-19-0431, and whatever additional sanctions and/or legal
actions this Court sees necessary and adequate against the named Respondents listed
intthe Respondents section of this filing, and/or any legal advice or recommenda­
tions of any additional legal proceedings for damages and/or injuries against the
same named parties/respondents as this Court sees additionally fit and appropriate,

15.

given the severity of Petitioner's claims and allegations contained herein,

If

there is nothing in fact to hide, then why is there such a fierce and concerted
effort by these officials and courts to keep whatever may be contained in these
requested records and documents by Petitioner's '‘Motion to Compel' from Petition­
er's and the public's view of what is in fact therein contained?

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Joseph E
Date:

16.

iwrence

